No. 20-1453
In the

Supreme Court of the Ziliutteb States

CAL CARTAGE TRANSPORTATION EXPRESS, LLC, et al.,
Petitioners,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the Bar of this Court and
that the Brief for the Western States Trucking Association, as Amicus Curiae Supporting
Petitioners complies with the typeface requirements of Supreme Court Rule 33.1(b), and
this brief contains 4,578 words as determined by commercial word processing software
and complies with the word limitation established by Rule 33.1(g) of the Rules of this
Court.

June 1, 2021

,a,,_ 0/49,_
Patrick Whalen

